No. 19-1039

IN THE

Oupretne Court of tbe Eniteb *Meg
PENNEAST PIPELINE COMPANY,

LLC,

Petitioner,
v.
STATE OF NEW JERSEY, et

al.,

Respondents.

On Writ of Certiorari to the
United States Court of Appeals
for the Third Circuit

BRIEF AMICUS CURIAE OF COLUMBIA GAS
TRANSMISSION, LLC IN SUPPORT OF
PETITIONER

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
6,603 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 8, 2021.

Colin Casey H'gan
Wilson-Epes Printing Co., Inc.

